                                                          Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Audit Announcement—Review                     Date:    February 8, 2006
           of Federal Transit Administration’s Procedures to
           Prevent Antideficiency Act Violations
           Project No. 05F3027F000

  From:    Rebecca Leng                                             Reply to
                                                                    Attn of:   JA-20
           Assistant Inspector General for Information
            Technology and Computer Security

    To:    Deputy Administrator
           Federal Transit Administration

           At the request of the House Appropriations Committee, we plan to review the
           Federal Transit Administration’s (FTA) budgetary accounting procedures. Our
           objective is to determine whether FTA has implemented sufficient accounting
           procedures and internal controls to prevent the reoccurrence of Antideficiency Act
           violations.

           In February 2002, the Office of Inspector General reported that FTA used
           inappropriate procedures for adjusting obligations on projects that resulted in a
           negative obligation balance of $77 million. In June 2003, the Department of
           Transportation reported that FTA had violated the Antideficiency Act. The report
           noted that FTA had modified its accounting procedures and taken steps to ensure
           that similar violations would not occur in the future.

           We plan to start this audit immediately. We will contact your audit liaison to
           schedule an entrance conference to discuss the planned audit. The Program
           Director for the project is Earl Hedges and the Project Manager is Mark Rielly.
           For any additional information, please call me at (202) 366-1496 or Earl Hedges at
           (410) 962-3612.
                                                    #

           cc: Assistant Secretary for Budget and Programs/Chief Financial Officer
               Associate Administrator for Budget and Policy, FTA
               FTA Audit Liaison, TBP-30
               OST Audit Liaison, M-1
